No.

IN THE
SUPREME COURT OF THE UNITED STATES

IsAiumoldo !)• Harris

PETITIONER

(Your Name)
VS.
S-Vock, o£ Me.\or<xslcoL

— RESPONDENT(S)

PROOF OF SERVICE
tj

tyiarriekio

iWfik

, do swear or declare that on this date,
,
20
_1LL,
as
required
by Supreme Court Rule 29 I have
%
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Xoualas, X PeJkrson ^ WI*Hc
LmfVnl^ N^WclsVcl

___________

I declare under penalty of perjury that the foregoing is true and correct.
15
Executed on Txlovuoum
*

20_&i

(Signature)

No.

IN THE SUPREME COURT OF THE UNITED STATES

MARRICKIO D. HARRIS/ PETITIONER
V.
STATE OF NEBRASKA, RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
THE NEBRASKA COURT OF APPEALS
DECLARATION OF INMATE FILING

I, Marrickio D. Harris, am an inmate confined in an institution (Nebraska
State Penitentiary). Today, February 15, 2021, I am depositing the MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI in this
case in the institution's internal mail system. First-class postage is being
prepaid by me or by the institution on my behalf.
I declare under penalty of perjury that the foregoing is true and correct
(see 28 U.S.C. § 1746; 18 U.S.C. § 1621).
Executed on February 15, 2021.

Marrickio D. Harris #210267
pro se Petitioner
P.O. Box 22500
Lincoln, Nebraska 68542-2500
(402) 471-3161

